<html>
<title> - CALM BEFORE THE STORM: REAUTHORIZING THE NATIONAL WINDSTORM IMPACT REDUCTION PROGRAM</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                         CALM BEFORE THE STORM:
                       REAUTHORIZING THE NATIONAL
                   WINDSTORM IMPACT REDUCTION PROGRAM

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY
                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 4, 2019

                               __________

                           Serial No. 116-59

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
 


       Available via the World Wide Web: http://science.house.gov
       
       
                            ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 38-482 PDF           WASHINGTON : 2020       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
LIZZIE FLETCHER, Texas               BRIAN BABIN, Texas
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                ROGER MARSHALL, Kansas
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  JAIME HERRERA BEUTLER, Washington
CHARLIE CRIST, Florida               FRANCIS ROONEY, Florida
SEAN CASTEN, Illinois                GREGORY F. MURPHY, North Carolina
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
CONOR LAMB, Pennsylvania
VACANCY
                                 ------                                

                Subcommittee on Research and Technology

                HON. HALEY STEVENS, Michigan, Chairwoman
DANIEL LIPINSKI, Illinois            JIM BAIRD, Indiana, Ranking Member
MIKIE SHERRILL, New Jersey           ROGER MARSHALL, Kansas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
PAUL TONKO, New York                 ANTHONY GONZALEZ, Ohio
BEN McADAMS, Utah                    JAIME HERRERA BEUTLER, Washington
STEVE COHEN, Tennessee
BILL FOSTER, Illinois
                                 ------                                

                      Subcommittee on Environment

                HON. LIZZIE FLETCHER, Texas, Chairwoman
SUZANNE BONAMICI, Oregon             ROGER MARSHALL, Kansas, Ranking 
CONOR LAMB, Pennsylvania                 Member
PAUL TONKO, New York                 BRIAN BABIN, Texas
CHARLIE CRIST, Florida               ANTHONY GONZALEZ, Ohio
SEAN CASTEN, Illinois                JIM BAIRD, Indiana
BEN McADAMS, Utah                    FRANCIS ROONEY, Florida
DON BEYER, Virginia                  GREGORY F. MURPHY, North Carolina

                         C  O  N  T  E  N  T  S

                            December 4, 2019

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Haley Stevens, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     7
    Written Statement............................................     8

Statement by Representative Jim Baird, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................    10

Statement by Representative Lizzie Fletcher, Chairwoman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    11
    Written Statement............................................    11

Statement by Representative Roger Marshall, Ranking Member, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    12
    Written Statement............................................    13

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    14
    Written statement............................................    15

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    15
    Written statement............................................    17

                               Witnesses:

Dr. Scott Weaver, Director of the National Windstorm Impact 
  Reduction Program, National Institute of Standards and 
  Technology
    Oral Statement...............................................    19
    Written Statement............................................    21

Major General Lee Tafanelli, Kansas Adjutant General, Director of 
  Kansas Homeland Security and Director of Emergency Management
    Oral Statement...............................................    30
    Written Statement............................................    32

Dr. Delong Zuo, Associate Professor of Civil Engineering, 
  National Wind Institute, Texas Tech University
    Oral Statement...............................................    36
    Written Statement............................................    38

Mr. Ryan Colker, Vice President of Innovation and Executive 
  Director of the Alliance for National and Community Resilience, 
  International Code Council
    Oral Statement...............................................    44
    Written Statement............................................    46

Discussion.......................................................    69

             Appendix I: Answers to Post-Hearing Questions

Dr. Scott Weaver, Director of the National Windstorm Impact 
  Reduction Program, National Institute of Standards and 
  Technology.....................................................    84

Major General Lee Tafanelli, Kansas Adjutant General, Director of 
  Kansas Homeland Security and Director of Emergency Management..    86

Dr. Delong Zuo, Associate Professor of Civil Engineering, 
  National Wind Institute, Texas Tech University.................    88

Mr. Ryan Colker, Vice President of Innovation and Executive 
  Director of the Alliance for National and Community Resilience, 
  International Code Council.....................................    89

            Appendix II: Additional Material for the Record

Letters submitted by Representative Haley Stevens, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    92


                         CALM BEFORE THE STORM:

                       REAUTHORIZING THE NATIONAL

                   WINDSTORM IMPACT REDUCTION PROGRAM

                              ----------                              


                      WEDNESDAY, DECEMBER 4, 2019

                  House of Representatives,
           Subcommittee on Research and Technology,
        joint with the Subcommittee on Environment,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to notice, at 2:33 p.m., in 
room 2318 of the Rayburn House Office Building, Hon. Haley 
Stevens [Chairwoman of the Subcommittee on Research and 
Technology] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Stevens. This hearing will come to order. 
Without objection, the Chair is authorized to declare recess at 
any time. Good afternoon, and welcome to this joint hearing of 
the Subcommittees on Research and Technology and Environment to 
review the National Windstorm Impact Reduction Program, known 
as NWIRP. Welcome to our distinguished panel of witnesses. I 
look forward to your testimony.
    Tornadoes, thunderstorms, hurricanes, and associated 
flooding are the deadliest and most costly natural hazards in 
the Nation. The National Weather Service reported that in 2018, 
75 people lost their lives in wind-related storms, and another 
80 died in flood-related events. The devastation caused by 
these storms have become synonymous with their locations and 
names. The tornadoes of Moore, Oklahoma and Joplin, Missouri, 
as well as Hurricanes Ike, Katrina, Sandy, Maria, Harvey, and 
so many more. Every State in the country is exposed to 
windstorm hazards from one or more storm types, including 
tornadoes, tropical cyclones, thunderstorms, Nor'easters, 
winter storms, mountain downslope winds, derechos, and others.
    Unfortunately, the costs associated with hurricanes are 
predicted to increase faster than we can pay for them. American 
families, businesses, and public sector organizations are 
expected to spend $54 billion on hurricane damages alone in 
2019. However, we have tools and strategies that exist today 
that could help decrease these overwhelming statistics. The 
National Institute of Building Sciences found that communities 
across the Nation could see a 10-to-1 benefit/cost ratio for 
every investment made to meet common code requirements for wind 
mitigation. NWIRP was established in 2004 with three key 
objectives: Improved understanding of windstorms; improved 
windstorm impact assessment; and reduced windstorm impacts. 
Translating our fundamental understanding of wind behavior into 
reduction of windstorm impact is critical to saving lives and 
reducing property damage caused by severe windstorms. 
Understanding human behavior and decisionmaking is also 
essential to saving lives.
    The National Institute of Standards and Technology, NIST, 
leads NWIRP. The program also supports interdisciplinary 
science and engineering research, public education, support for 
improved building codes, and other activities at the National 
Science Foundation (NSF), the National Oceanic and Atmospheric 
Administration (NOAA), and the Federal Emergency Management 
Agency, FEMA. FEMA supports an annual National Preparedness 
Month each September to promote family and community disaster 
and emergency planning. In addition to promoting adoption of 
current building codes, FEMA seeks to educate the general 
public about measures individuals can take, for example, 
knowing the safest places in their homes to hide during a 
storm. As climate change continues to increase the prevalence 
and risks of severe weather, the Federal investments through 
NWIRP provide us with the necessary tools to save lives and 
reduce the economic costs of windstorms. But implementing these 
tools requires partnership with local governments, the private 
sector, and individual Americans. Today's discussion will be in 
part about how we can continue to strengthen those 
partnerships.
    Authorization for NWIRP expired in 2017. The Science 
Committee looks forward to engaging with the windstorm research 
and building code communities and State and local governments 
on recommendations for reauthorization of this important 
program, and improving our Nation's resilience to devastating 
windstorms.
    [The prepared statement of Chairwoman Stevens follows:]

    Good afternoon and welcome to this joint hearing of the 
Subcommittees on Research and Technology and Environment to 
review the National Windstorm Impact Reduction Program, known 
as ``NWIRP.'' Welcome to our distinguished panel of witnesses. 
I look forward to your testimony.
    Tornadoes, thunderstorms, hurricanes, and associated 
flooding are the deadliest and most costly natural hazards in 
the nation. The National Weather Service reported that in 2018, 
75 people lost their lives in wind-related storms and another 
80 died in flood-related events. The devastation caused by 
these storms have become synonymous with their locations and 
names: the tornadoes of Moore, Oklahoma and Joplin, Missouri, 
as well as Hurricanes Ike, Katrina, Sandy, Maria, Harvey and so 
many more.
    Every state in the country is exposed to windstorm hazards 
from one or more storm types, including tornadoes, tropical 
cyclones, thunderstorms, Nor'easters, winter storms, mountain 
downslope winds, derechos, and others.
    Unfortunately, the costs associated with hurricanes are 
predicted to increase faster than we can pay for them. American 
families, businesses, and public sector organizations are 
expected to spend $54 billion on hurricane damages alone in 
2019. However, we have tools and strategies that exist today 
that could help decrease these overwhelming statistics.
    The National Institute of Building Sciences found that 
communities across the nation could see a 10 to 1 benefit-cost 
ratio for every investment made to meet common code 
requirements for wind mitigation. NWIRP was established in 2004 
with three key objectives--improved understanding of 
windstorms, improved windstorm impact assessment, and reduced 
windstorm impacts.
    Translating our fundamental understanding of wind behavior 
into reduction of windstorm impact is critical to saving lives 
and reducing property damage caused by severe windstorms. 
Understanding human behavior and decision making is also 
essential to saving lives.
    The National Institute of Standards and Technology, NIST, 
leads NWIRP. The Program also supports interdisciplinary 
science and engineering research, public education, support for 
improved building codes, and other activities at the National 
Science Foundation, the National Oceanic and Atmospheric 
Administration, and the Federal Emergency Management Agency.
    FEMA supports an annual National Preparedness Month each 
September to promote family and community disaster and 
emergency planning. In addition to promoting adoption of 
current building codes, FEMA seeks to educate the general 
public about measures individuals can take, for example knowing 
the safest places in their homes to be during a storm. As 
climate change continues to increase the prevalence and risks 
of severe weather, the Federal investments through NWIRP 
provide us with the necessary tools to save lives and reduce 
the economic costs of windstorms.
    But implementing these tools requires partnership with 
local governments, the private sector, and individual 
Americans. Today's discussion will be in part about how we can 
continue to strengthen those partnerships.
    Authorization for NWIRP expired in 2017. The Science 
Committee looks forward to engaging with the windstorm research 
and building code communities and State and local governments 
on recommendations for reauthorization of this important 
program and improving our nation's resilience to devastating 
windstorms.

    Chairwoman Stevens. Before I recognize Dr. Baird for his 
opening statement, I would like to present for the record two 
letters from the American Society of Civil Engineers and 
Florida International University.
    The Chair now recognizes Dr. Baird for an opening 
statement.
    Mr. Baird. Good afternoon, and thank you, Chairwoman 
Stevens and Chairwoman Fletcher. I want to thank both of you 
for holding this joint hearing today. I appreciate the 
witnesses being here as well. I look forward to hearing from 
the progress the National Windstorm Impact Reduction Program, 
NWIRP, has made since its reauthorization in 2015.
    Millions of Americans live in areas vulnerable to 
hurricanes, tornadoes, and other windstorms. Due to shifts in 
populations, more than 50 percent of Americans now live on a 
coast or in Tornado Alley. Americans today are more vulnerable 
than ever to severe weather events. Every year families, and 
communities, and businesses suffer as lives are lost, and 
property is damaged. We spend billions of dollars each year on 
recovery efforts, and these are only expected to grow. That's 
why we need cost-effective measures to reduce the impact of 
windstorms on lives, buildings, and infrastructure. NWIRP was 
created to improve our understanding of windstorms, and to 
encourage the implementation of cost-effective mitigation 
measures. It will be good to hear from this program as 
proactively supporting research and development programs to 
save lives and reduce property damage caused by these horrific 
storms.
    One key element of NWIRP is the coordination of Federal 
agency research efforts in cooperation with other levels of 
government, academia, and the private sector. One example of 
NWIRP's research efforts is the National Hazards Engineering 
Research Infrastructure (NHERI) network at the National Science 
Foundation. To make that brief, that's NHERI. We've got 
acronyms for everything around here, you know? NHERI provides a 
network of shared state-of-the-art research facilities and 
tools at universities around the country to help better 
understand and withstand the impacts of natural hazards.
    Purdue University, in my district, is leading the NHERI 
Network Coordination Office. The Coordination Office 
facilitates shared technical knowledge and best practices among 
the network of eight experimental facilities. This network 
allows hazard researchers to explore and test groundbreaking 
concepts of protecting our homes, our businesses, our 
infrastructure, lifelines, and to enable innovations that 
mitigate the damages from these natural hazards. The office 
also leads education and outreach, and the development of 
strategic partnerships around the world. The goal is for these 
partnerships to lead a coordinated global natural hazards 
engineering research infrastructure that fosters collaboration 
in new ways. These critical investments also offer educational 
opportunities to the students who will engineer our 
communities, and plan our disaster response in the future. 
These investments in R&D (research and development) activities 
support the creation of improved windstorm impact reduction 
measures, such as increased warning time, and the development 
of safe room building guidance.
    We know that these measures have the potential to save 
lives and reduce losses associated with hurricanes, tornadoes, 
and other severe wind hazards, but may not have been widely 
adopted. NWIRP is directed to conduct research--development to 
help improve building codes, voluntary standards, and 
construction practices to improve the resilience of structures 
to windstorms. While it has been some success, I look forward 
to hearing from our witnesses on how we can better improve the 
transfer of this research to the building code communities. In 
addition, I look forward to hearing what steps NWIRP is taking 
to improve public outreach and information dissemination, and 
the promotion of the adoption of windstorm preparedness and 
mitigation measures, and what could be improved.
    I would like to thank our witnesses for taking the time to 
join us here today, and share your experience and your 
expertise, and I look forward to hearing from you. And, with 
that, I yield back the balance of my time.
    [The prepared statement of Mr. Baird follows:]

    Good afternoon Chairwoman Stevens and Chairwoman Fletcher. 
Thank you both for holding this joint hearing today.
    I look forward to hearing about the progress the National 
Windstorm Impact Reduction Program (NWIRP) has made since its 
reauthorization in 2015.
    Millions of Americans live in areas vulnerable to 
hurricanes, tornadoes and other windstorms.
    Due to shifts in population, more than 50 percent of 
Americans now live on a coast or in tornado alley.
    Americans today are more vulnerable than ever to severe 
weather events.
    Every year families, communities, and businesses suffer as 
lives are lost and property is destroyed.
    We spend billions of dollars each year on recovery efforts 
and these are only expected to grow.
    That's why we need cost effective measures to reduce the 
impact of windstorms.
    NWIRP was created to improve our understanding of 
windstorms and to encourage the implementation of cost-
effective mitigation measures.
    It will be good to hear how this program is proactively 
supporting research and development to save lives and reduce 
property damage caused by these horrific storms.
    One key element of NWIRP is the coordination of Federal 
agency research efforts, in cooperation with other levels of 
government, academia, and the private sector.
    One example of NWIRP's research efforts is the Natural 
Hazards Engineering Research Infrastructure network at the 
National Science Foundation.
    NHERI provides a network of shared, state-of-the-art 
research facilities and tools at universities around the 
country to help us better understand and withstand the impacts 
of natural hazards.
    Purdue University in my district is leading the NHERI 
Network Coordination Office.
    The Coordination Office facilitates shared technical 
knowledge and best practices among the network of eight 
Experimental Facilities.
    This network allows hazards researchers to explore and test 
ground-breaking concepts for protecting our homes, businesses 
and infrastructure lifelines, and to enable innovations that 
mitigate the damages from natural hazards.
    The Office also leads education and outreach and the 
development of strategic partnerships around the world.
    The goal is for these partnerships to lead to a 
coordinated, global natural-hazards engineering research 
infrastructure that fosters collaboration in new ways.
    These critical investments also offer educational 
opportunities to the students who will engineer our communities 
and plan our disaster response in the future.
    These investments in R&D activities support the creation of 
improved windstorm impact reduction measures, such as increased 
warning time and the development of safe room building 
guidance.
    We know that these measures have the potential to save 
lives and reduce losses associated with hurricanes, tornados, 
and other severe wind hazards, but have not been widely 
adopted.
    NWIRP is directed to conduct research and development to 
help improve building codes, voluntary standards, and 
construction practices to improve the resilience of structures 
to windstorms.
    While it has seen some success, I look forward to hearing 
from our witnesses on how we can better improve the transfer of 
this research to the building code communities.
    In addition, I look forward to hearing what steps NWIRP is 
taking to improve public outreach and information 
dissemination.
    I would like to thank our witnesses for taking the time to 
join us today to share your experience and expertise.

    Chairwoman Stevens. Thank you. The Chair now recognizes 
Mrs. Fletcher for an opening statement.
    Chairwoman Fletcher. Thank you, Chairwoman Stevens. I join 
you, and Ranking Members Baird and Marshall, in welcoming all 
of you today for today's joint hearing between the Research and 
Technology and the Environment Subcommittees on reauthorizing 
National Windstorm Impact Reduction Program, NWIRP. NWIRP was 
established in 2004 to improve understanding of windstorms and 
their impacts, and to work to mitigate those impacts in a cost-
effective way. The overall success of this program can be 
attributed to its inter-agency approach, led by the National 
Institute of Standards and Technology, or NIST, which helps to 
streamline Federal efforts, and leverage existing programs and 
activities.
    Windstorms affect all 50 States, and many territories, 
through severe weather events, such as hurricanes, tornadoes, 
and thunderstorms. Unfortunately, my constituents in Houston 
know all too well the wind damage that we see from hurricanes, 
and the devastating impact that they can have. And, in fact, 
the scale used to grade hurricanes is based upon hurricane 
sustained wind speeds, and its potential to cause life and 
property damage. In Texas we're familiar with that as well, 
with tornadoes and strong thunderstorms in other parts of the 
State, as well as--we have seen more recently in Houston. That 
is why I'm so pleased that one of our witnesses, Dr. Zuo, is 
from the National Wind Institute based at Texas Tech 
University. It's crucial that we understand and identify 
interdisciplinary research needs so that we can improve the 
outcomes of NWIRP.
    On the Environment Subcommittee we've already discussed 
many of NOAA's programs and activities that support the goals 
of NWIRP. The agency's windstorm related research falls largely 
within the categories of hurricanes and other local severe 
weather, including tornadoes and thunderstorms. NOAA's 
operational role of providing windstorm forecasts and 
conducting post-event assessments, and its commitment to 
improving the integration of research to operations, is also a 
vital part of meeting NWIRP's goals.
    Programs like NWIRP will also benefit from NOAA's ongoing 
efforts to improve the accuracy, lead time, and dissemination 
of weather forecasts through the implementation of the Weather 
Research Forecasting Innovation Act, and the recently 
established Earth Prediction Innovation Center, or EPIC. 
Today's discussion will inform this Committee's work to 
reauthorize an interagency program that engages stakeholders 
across a variety of sectors, represented by our distinguished 
panel.
    I look forward to hearing from our non-Federal witnesses on 
how their organizations have successfully utilized the outcomes 
of the program, and their recommendations on how NWIRP can be 
improved. It is critical for this Committee, and Congress 
overall, to continue its work in evaluating and reauthorizing 
existing programs that have a successful track record of 
providing benefits for all of our constituents. Thank you, and 
I yield back.
    [The prepared statement of Chairwoman Fletcher follows:]

    Good afternoon. I would like to join Chairwoman Stevens in 
welcoming you to today's joint hearing between the Research and 
Technology, and Environment Subcommittees on reauthorizing the 
National Windstorm Impact Reduction Program or NWIRP.
    NWIRP was established in 2004 to improve the understanding 
of windstorms and their impacts, and to work to mitigate those 
impacts in a cost-effective way. The overall success of this 
program can be attributed to its interagency approach, led by 
the National Institute of Standards and Technology, or NIST, 
which helps to streamline federal efforts and leverage existing 
programs and activities.
    Windstorms affect all 50 states and many territories 
through severe weather events such as hurricanes, tornadoes, 
and thunderstorms.
    Unfortunately, my constituents in Houston, Texas are all 
too familiar with high winds from hurricanes and the damage 
they can cause. In fact, the Saffir-Sampson hurricane wind 
scale used to grade hurricanes is based upon a hurricane's 
sustained wind speeds and its potential to cause loss of life 
and property damage. My home state of Texas is also familiar 
with tornadoes and strong thunderstorms, which is why I am 
pleased to see that one of our witnesses, Dr. Delong Zuo, is 
from the National Wind Institute based at Texas Tech 
University. It is crucial that we understand and identify 
interdisciplinary research needs so we can improve the outcomes 
of NWIRP.
    On the Environment Subcommittee we have already discussed 
many of NOAA's programs and activities that support the goals 
of NWIRP. The agency's windstorm related research falls largely 
within the categories of hurricanes and other local severe 
weather including tornadoes and thunderstorms. NOAA's 
operational role of providing windstorm forecasts and 
conducting post event assessments, and its commitment to 
improving the integration of research to operations, is also a 
vital part of meeting NWIRP's goals.
    Programs such as NWIRP will also benefit from NOAA's 
ongoing efforts to improve the accuracy, lead time, and 
dissemination of weather forecasts through the implementation 
of the Weather Research and Forecasting Innovation Act and the 
recently established Earth Prediction Innovation Center, or 
EPIC.
    Today's discussion will inform this Committee's work to 
reauthorize an interagency program that engages stakeholders 
across a variety of sectors, represented by our distinguished 
panel. I look forward to hearing from our non-federal witnesses 
how their organizations have successfully utilized the outcomes 
of the program, and their recommendations on how NWIRP can be 
improved. It is critical for this Committee, and Congress 
overall, to continue its work in evaluating and reauthorizing 
existing programs that have a successful track record of 
providing benefits to our constituents.
    Thank you and I yield back.

    Chairwoman Stevens. Thank you, and the Chair now recognizes 
Dr. Marshall for an opening statement, and thank you so much, 
sir, for your tremendous leadership in today's hearing.
    Mr. Marshall. Thank you, Chairwoman Stevens and Chairwoman 
Fletcher, for holding this hearing. I appreciate this 
Committee's focus on improving forecasting the effects of 
severe weather events this Congress. Today's hearing builds on 
our previous work. It examines how we translate the knowledge 
gained from an improved forecast and use that to help our 
constituents better prepare for severe weather events, wind 
damage in this case.
    Damage from severe wind effects from tornadoes and 
thunderstorms is a phenomenon Kansans know too well, and it's 
certainly a tragedy that I know too well personally. One of our 
witnesses will recall the Greensburg Tornado of 2007, an F5 
tornado that left 14 people dead. That tornado continued 
northward. By the time it got to my property, it was a mile 
wide. It literally looked like someone had taken a lawnmower, 
set it about 6, off the ground, and mowed off everything above 
6,. The tornado decided I didn't need my porch, I didn't need 
my roof, and my barn should be repositioned. It was certainly a 
devastating night that I'll never forget. It was just 6 years 
earlier, prom night, in Hoisington, Kansas that an F4 tornado 
took about a third of the city out. Many of my friends', my 
patients' homes were damaged. Amazingly, only one fatality. And 
I'll always remember seeing the widow of that fatality the next 
week in my office.
    Farmers and ranchers face the constant threat of damaged 
equipment and lost crops due to severe weather. Homeowners in 
rural communities, towns, and cities all face the same prospect 
of damage to their homes. First responders and emergency 
personnel must be prepared for these events at a moment's 
notice. The National Windstorm Impact Reduction Program, more 
commonly known as NWIRP, was created by Congress in 2004. The 
legislation was written to help reduce the loss of life and 
property by ensuring a coordinated Federal response, and 
working with different levels of government, and private 
sector, and the research community in better understanding 
windstorms, and mitigating their impacts.
    NWIRP was reauthorized in 2015, and placed the National 
Institute of Standards and Technology in charge of coordinating 
Federal efforts. In the years since the program was created, we 
have made significant progress in understanding and mitigating 
the impacts of wind damage. NOAA has made strides in its 
ability to forecast extreme weather, and will continue to do so 
thanks to weather-related legislation passed by this Committee. 
The National Science Foundation has engaged in research which 
has helped to improve the communication of severe weather 
events to the public. NIST has led research which has resulted 
in improved building standards for communities across the 
country, but we must strive to doing more as we consider 
reauthorizing this program. Questions this Committee should ask 
include can we further improve the coordination of the Federal 
agencies involved in these efforts? How can we assist 
communities in adopting and utilizing the research generated 
through these efforts?
    I want to think our panel of witnesses for appearing today 
here with us, and help answer our questions. Our witnesses 
represent government, academic, and private-sector 
perspectives, and I look forward to a conversation about how we 
continue to press this important issue. My only regret today is 
my dad's not here with us. My dad was the Chief of Police in El 
Dorado, Kansas for 25 years, and it was his responsibility to 
decide when do you blow the sirens? When do you blow that 
tornado siren? And I remember many a night standing out on a 
turnpike on an overpass, watching the clouds as they came 
closer, and my dad trying to decide, do we blow the sirens or 
not? And it's my hope that the science that we can discover 
here, the improved emergency systems that we have, can lead to 
more safety, and take pressure off those people that are trying 
to make those life and death decisions. So thank you, Madam 
Chair, and I yield back.
    [The prepared statement of Mr. Marshall follows:]

    Thank you for holding this hearing, Chairwoman Stevens and 
Chairwoman Fletcher.
    I appreciate this committee's focus on improving 
forecasting the effects of severe weather events this Congress. 
Today's hearing builds on our previous work and examines how we 
can translate the knowledge gained from improved forecasts and 
use that to help our constituents better prepare for severe 
weather events--wind damage in this case.
    Damage from severe wind effects from tornadoes and 
thunderstorms is a phenomenon Kansans know well. Farmers and 
ranchers face the constant threat of damaged equipment and lost 
crops due to severe weather. Homeowners in rural communities, 
towns, and cities all face the same prospect of damage to their 
homes. First responders and emergency personnel must be 
prepared for these events at a moment's notice.
    The National Windstorm Impact Reduction Program--more 
commonly known as NWIRP was created by Congress in 2004. This 
legislation was written to help reduce the loss of life and 
property by ensuring a coordinated federal response in working 
with different levels of government, the private sector, and 
the research community in better understanding windstorms and 
mitigating their impacts. NWIRP was reauthorized in 2015 and 
placed the National Institute of Standards and Technology 
(NIST) in charge of coordinating federal efforts.
    In the years since the program was created, we have made 
significant progress in understanding and mitigating the 
impacts of wind damage. NOAA has made strides in its ability to 
forecast extreme weather and will continue to do so thanks to 
weather-related legislation passed by this Committee. The 
National Science Foundation has engaged in research which has 
helped improve the communication of severe weather events to 
the public. NIST has led research which has resulted in 
improved building standards for communities across the country.
    But we must strive to do more as we consider reauthorizing 
this program. Questions this committee should ask include: Can 
we further improve the coordination of the federal agencies 
involved in these efforts? How can we assist communities in 
adopting and utilizing the research generated through these 
efforts?
    I want to thank our panel of witnesses for appearing here 
today who will help us answer these questions. Our witnesses 
represent government, academic, and private sector perspectives 
and I look forward to a conversation about how we can continue 
to address this important issue.
    Thank you, Madam Chair. I yield back.

    Chairwoman Stevens. And now we'll recognize the Chair of 
our entire Science Committee, Chairwoman Johnson, who we are 
also wishing a very happy belated birthday to today.
    Chairwoman Johnson. Thank you very much. Let me thank you, 
Chairwomen Stevens and Fletcher, for holding this hearing. As 
Chair Fletcher already discussed, the State of Texas has 
experienced devastating loss of life and property from 
hurricanes and associated flooding. Texas is also one of the 
States most vulnerable to tornadoes. When an EF-3 tornado hit 
my home city of Dallas in October, hundreds of people lost 
their homes and businesses. Two Dallas schools were destroyed. 
One estimate puts the economic cost of tornadoes that struck 
North Texas that night at $2 billion. We are so fortunate that 
no lives were lost.
    The nation is facing increasing natural disasters of all 
kinds due to the climate change and land use changes. The human 
and financial toll of these disasters is increasing, not just 
because of the increased severity and frequency of disasters, 
but also because of the growing population. The shift is where 
people are living, and the plan and policy choices made by 
local and State leaders.
    In Texas, building codes are adopted at the city and county 
level. A new survey of jurisdictions along the Texas coast by 
the Insurance Institute for Business and Home Safety found that 
840,000 Texans live in areas with no adopted residential 
building code. In its 2018 report, ``Rating State Building Code 
Systems for All Eastern and Southern Coastal States,'' the same 
institute gave Texas a score of 34 out of 100. Only three 
States ranked lower. Florida, on the other hand, received a 95. 
I hate to say it, but in this case Florida proves that where 
there's a will, there's a way.
    The National Windstorm Impact Reduction Program provides 
States and local jurisdictions, as well as individual home and 
business owners, with the tools and information they need to 
protect their families, their property, and their communities. 
The risks are increasing, but the 15-year NWIRP program has not 
received the support it merits, including here in Congress. The 
program is carrying on even after the expiration of the last 
reauthorization thanks to the commitment and hard work of the 
program staff in each of the key agencies. And I applaud them 
for that, but they are operating on a shoestring budget at 
best. We must provide them with the resources and other support 
to carry out their mission.
    Many of us on this Committee are from States that have seen 
widespread devastation from windstorms, and we will see more. 
We are from red States, blue States, big cities, rural areas, 
wealthy and poor States. All of our communities are at risk, 
and those who are already the most economically vulnerable 
suffer the most when natural disasters strike.
    As you have heard, and will hear from others in the 
hearing, $1 invested in resilience is $10 saved. Reauthorizing 
the NWIRP program and providing the agencies with much needed 
resources will be a priority for this Committee in the new 
year. I look forward to working with my colleagues on the other 
side of the aisle, and the same in the Senate. I thank you, and 
yield back.
    [The prepared statement of Chairwoman Johnson follows:]

    Thank you, Chairwomen Stevens and Fletcher, for holding 
this hearing. As Chair Fletcher already discussed, the state of 
Texas has experienced devastating loss of life and property 
from hurricanes and associated flooding. Texas is also one of 
the states most vulnerable to tornadoes. When an EF-3 Tornado 
hit my home city of Dallas in October, hundreds of people lost 
their homes or businesses. Two Dallas schools were destroyed. 
One estimate puts the economic cost of the tornadoes that 
struck North Texas that night at $2 billion. We are very 
fortunate that no lives were lost.
    This nation is facing increasing natural disasters of all 
kinds due to climate change and land use changes. The human and 
financial toll of these disasters is increasing not just 
because of the increased severity and frequency of disasters, 
but also because of the growing population, the shift in where 
people are living, and the planning and policy choices made by 
local and state leaders.
    In Texas, building codes are adopted at the city and county 
level. A new survey of jurisdictions along the Texas coast by 
the Insurance Institute for Business and Home Safety found that 
840,000 Texans live in areas with no adopted residential 
building code. In its 2018 report rating state building code 
systems for all eastern and southern coastal states, the same 
Institute gave Texas a score of 34 out of 100. Only 3 states 
ranked lower. Florida, on the other hand, received a 95. I hate 
to say it, but in this case, Florida proves that where there is 
a will, there is a way.
    The National Windstorm Impact Reduction Program provides 
states and local jurisdictions, as well as individual home and 
business owners with the tools and information they need to 
protect their families, their property, and their communities. 
The risks are increasing, but the 15-year old NWIRP program has 
not received the support it merits, including here in Congress. 
The program is carrying on even after the expiration of the 
last reauthorization thanks to the commitment and hard work of 
program staff in each of the key agencies. And I applaud them 
for that. But they are operating on a shoestring budget at 
best. We must provide them with the resources and other support 
to carry out their mission.
    Many of us on this Committee are from states that have seen 
widespread devastation from windstorms. And we will see more. 
We are from red states and blue states, big cities and rural 
areas, wealthy and poor states.
    All of our communities are at risk, and those who are 
already the most economically vulnerable suffer the most when 
natural disasters strike. As you have heard and will hear from 
others in the hearing, $1 invested in resilience is $10 saved. 
Reauthorizing the NWIRP program and providing the agencies with 
much needed resources will be a priority for this Committee in 
the new year. I look forward to working with my colleagues on 
the other side of the aisle and in the Senate to get this done.

    Chairwoman Stevens. Thank you, Madam Chair. And now the 
Chair recognizes Ranking Member Lucas for an opening statement.
    Mr. Lucas. Thank you, Madam Chairwoman, and good afternoon, 
Chairwoman Stevens, and I'd also like to thank you and 
Chairwoman Fletcher for holding this joint hearing today on the 
National Weather Storm Impact Reduction Program.
    As a son of Oklahoma, where--and yes, Rogers and 
Hammerstein were correct--the wind comes sweeping down the 
plain, efforts to reduce the loss of life and property from 
windstorms is of extreme importance to my family, my friends, 
and my neighbors. Oklahoma's part of an area of the Midwest 
referred to by many as Tornado Alley, and over the last decade, 
the last 10 years, tornadoes have caused an average financial 
loss of over $10 billion per year. This May, a four day tornado 
outbreak produced 190 tornadoes, impacting States across the 
Rockies, the midwest, the northeast, from Colorado to Oklahoma, 
and all the way to New Jersey. The estimated cost of this 
outbreak was $3.2 billion.
    Each year, lives are lost, billions are spent recovering 
from the destruction caused by tornadoes, hurricanes, and 
windstorms, and the costs associated with windstorms are 
increasing. NWIRP helps provide coordination between Federal 
Government agencies, universities, industry, local and State 
governments. This cooperation is needed to meet the great 
challenges of responding to windstorms. It is important we 
continue to support the Federal research done through NWIRP to 
improve our understanding of windstorms, their impacts, and to 
develop and enhance mitigation measures.
    For example, through NWIRP, NIST is supporting researchers 
from the University of Oklahoma who are developing maps of 
damaging winds using data collected from integrated remote and 
onsite observations. These observations will provide high 
resolution data in time and space, providing for improved real-
time forecasting. NSF and NOAA are also working with the 
University of Oklahoma on the TORUS (Targeted Observations by 
Radars and UAS of Supercells) project. The project involves 
more than 50 researchers and students using different tools to 
measure the atmosphere, including unmanned aircraft systems, 
mobile radars, and NOAA's Hurricane Hunter aircraft.
    After 32 days on the road, traveling more than 9,000 miles, 
researchers encountered 19 supercells, with eight of those 
storms producing tornadoes. Researchers expect results from the 
TORUS project to be groundbreaking. The insights gained will 
improve our understanding of why supercells create tornadoes 
and others do not, leading to improved forecasting. The project 
is also offering hands-on training in the field for the future 
workforce. Students taking part in this project will give us 
better knowledge of windstorms and develop the next generation 
of applications for reducing future losses. I look forward to 
what they discover in the 2020 storm season and beyond.
    This research is important, but it is also key that we find 
practical and effective applications for this research, so that 
it reaches those who need it the most, States and local 
communities. I understand this is a challenge, but I look 
forward to hearing today on how NWIRP is working to tackle it, 
and to better prepare our Nation for windstorms.
    I'd like to thank our witnesses for coming today to share 
their expertise on the challenges, and hopeful successes, of 
reducing windstorm impacts. Thank you, and I yield back the 
balance of my time, Madam Chair.
    [The prepared statement of Mr. Lucas follows:]

    Good afternoon Chairwoman Stevens. I would like to thank 
you and Chairwoman Fletcher for holding this joint hearing 
today on the National Windstorm Impact Reduction Program 
(NWIRP).
    As a son of Oklahoma, where--the wind comes sweepin' down 
the plain--efforts to reduce the loss of life and property from 
windstorms is of extreme importance to my family, friends, and 
neighbors. Oklahoma is part of an area of the midwest called 
``tornado alley.'' Over the past 10 years, tornados have caused 
an average financial loss of over $10 billion per year.
    This May, a four-day tornado outbreak produced 190 
tornados, impacting states across the Rockies, Midwest and 
Northeast--from Colorado to Oklahoma and all the way to New 
Jersey. The estimated cost of this outbreak was $3.2 billion.
    Each year, lives are lost and billions are spent recovering 
from the destruction caused by tornadoes, hurricanes and other 
windstorms. And the costs associated with windstorms are 
increasing.
    NWIRP helps provide coordination between federal government 
agencies, universities, industry, and local and state 
governments. This cooperation is needed to meet the great 
challenge of responding to windstorms.
    It is important we continue to support the federal research 
done through NWIRP to improve our understanding of windstorms, 
their impacts, and to develop enhanced mitigation measures.
    For example, through NWIRP, NIST is supporting researchers 
from the University of Oklahoma who are developing maps of 
damaging winds using data collected from integrated remote and 
on-site observations. These observations will provide high 
resolution data in time and space, providing for improved real-
time forecasting.
    NSF and NOAA are also working the University of Oklahoma on 
the TORUS project. The project involves more than 50 
researchers and students using different tools to measure the 
atmosphere, including unmanned aircraft systems, mobile radars 
and NOAA's ``Hurricane Hunter'' aircraft.
    After 32 days on the road, traveling more than 9,000 miles, 
researchers encountered 19 supercell storms, with eight of 
those storms producing tornadoes. Researchers expect results 
from the TORUS project to be groundbreaking.
    The insights gained will improve our understanding of why 
some supercells create tornadoes and others do not, leading to 
improved forecasting.
    The project is also offering hands-on training in the field 
for the future workforce. Students taking part in this project 
will give us better knowledge of windstorms and develop the 
next generation of applications for reducing future losses. I 
look forward to what they discover in the 2020 storm season and 
beyond.
    This research is important, but it is also key that we find 
practical and effective applications for this research, so that 
it reaches those who need it most--states and local 
communities.
    I understand this is a challenge, but I look forward to 
hearing today how NWIRP is working to tackle it and to better 
prepare our nation for windstorms.
    I would like to thank our witnesses for coming today to 
share their expertise on the challenges, and hopefully 
successes, of reducing windstorm impacts.
    Thank you and I yield back the balance of my time.

    Chairwoman Stevens. Thank you so much, Mr. Lucas. And if 
there are other Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I'd like to introduce our incredible 
witnesses. Our first witness is Dr. Scott Weaver. Dr. Weaver is 
the Director of the National Windstorm Impact Reduction 
Program, NWIRP, at the National Institute of Standards and 
Technology, NIST. Dr. Weaver also holds an appointment as 
Adjunct Associate Professor in the Department of Atmospheric 
and Oceanic Science at the University of Maryland. He currently 
chairs the NWIRP Windstorm Working Group, a Federal inter-
agency partnership that carries out coordination and 
implementation of the NWIRP program. Prior to joining NIST, Dr. 
Weaver served as the Senior Climate Scientist for the 
Environmental Defense Fund, and spent several years as a 
research meteorologist in the Climate Predication Center at 
NOAA. Thank you so much from bringing your expertise here.
    And, at this time, this Chair would also like to ask Dr. 
Marshall to introduce our next witness.
    Mr. Marshall. All right. Thank you, Chairwoman Stevens. I'm 
very proud today to welcome a good personal friend, and a 
fellow public servant to the people of Kansas, Major General 
Lee Tafanelli, as a witness today. Welcome, General Tafanelli. 
It's good to see you here. Major Tafanelli is the Adjutant 
General of Kansas, and the Director of Kansas Homeland Security 
and Emergency Management. In these roles, he oversees the 
activities of the Adjutant General's Department by providing 
personnel, administration, and training guidance for over 7,000 
soldiers and airmen in the Kansas Army and Air National Guard, 
as well as leadership to the full-time National Guard and State 
employees of the Department. He's responsible for leading a 
core group of professionals tasked with preparing and 
responding to emergency situations within the State of Kansas. 
This includes guidance and training to 105 county emergency 
managers and their staffs.
    Major Tafanelli has worked to ensure security in the State 
is a top priority. Prior to his appointment as Adjutant 
General, Major General Tafanelli was assigned as the Assistant 
Adjutant General. In addition, he served in the Kansas House of 
Representatives, representing the 47th District from 2001 to 
2011. Major Tafanelli received his commission from Pittsburg 
State University, where we were both there recently to 
commission some officers, and is also an Army Reserve Officer 
Training Corps, and holds a master's degree from one of the top 
universities in the country, Kansas State University, and the 
Army War College. Thank you for being here today, Major 
General, and I yield back.
    Chairwoman Stevens. Excellent. Our next witness is Dr. 
Delong Zuo. Dr. Zuo is an Associate Professor in the Department 
of Civil, Environmental, and Construction Engineering at Texas 
Tech University. He is also the Technical Director of the wind 
engineering pillar of the National Wind Institute at Texas Tech 
University. Dr. Zuo's expertise is in the areas of structural 
dynamics, wind engineering, and wind hazard mitigation. His 
current research focuses on the assessment of tornadic loading 
on buildings, and wind-induced vibration of slender structures, 
such as long-span bridges and towers of various types.
    Dr. Zuo is currently the principal investigator of the Wind 
Hazard and Infrastructure Performance Center, funded by the 
National Science Foundation, and he also serves as a member of 
the Strategic Committee of the Network Coordination Office of 
the Natural Hazards Engineering Research Infrastructure Program 
supported by NSF.
    Our final witness is Mr. Ryan Colker. Mr. Colker is Vice 
President of Innovation at the International Code Council 
(ICC), and also serves as the Executive Director of the 
Alliance for National and Community Resilience, a national 
coalition working to provide communities with the tools 
necessary to assess and improve their resilience. Prior to 
joining ICC, Mr. Colker served as Vice President at the 
National Institute of Building Sciences, where he led efforts 
to improve the built environment through the collaboration of 
public- and private-sector industry stakeholders. At the 
National Institute of Building Sciences, he directed the 
Consultative Council, which develops findings and 
recommendations on behalf of the entire building community. So 
it looks like we're in for a good one here.
    As our witnesses should know, you will each have 5 minutes 
for your spoken testimony. Your written testimony will be 
included in the record for the hearing. And, when you've each 
concluded your spoken testimony, we'll begin questions, and 
we'll do that at the conclusion here. Each Member will have 5 
minutes to address the panel, and we're going to start with 5 
minutes from Dr. Weaver.

                 TESTIMONY OF DR. SCOTT WEAVER,

           DIRECTOR OF THE NATIONAL WINDSTORM IMPACT

                    REDUCTION PROGRAM, NIST

    Dr. Weaver. Chairwoman Johnson, Ranking Member Lucas, 
Chairwoman Stevens, Chairwoman Fletcher, Ranking Member Baird, 
Ranking Member Marshall, and Members of the Subcommittees, I am 
Dr. Scott Weaver, Director for the National Windstorm Impact 
Reduction Program, or NWIRP, at the Department of Commerce's 
National Institute of Standards and Technology, known as NIST. 
Thank you for the opportunity to appear before you today.
    NWIRP is an inter-agency science and engineering-based 
program focused on achieving major measurable reductions in 
losses of life and property from windstorms. Since NWIRP's 
inception in 2004, we have made notable progress toward efforts 
to reduce windstorm impacts. This includes significant 
improvements in hurricane forecasts and increased tornado 
warning times; advancements in the science of wind mapping to 
inform engineering-based design standards; improved 
coordination practices and research support for post-windstorm 
investigations; and implementation of post-windstorm research-
based recommendations into codes, standards, and practices. 
Despite these achievements, the Nation continues to experience 
increasing losses of life and property due to these extreme 
weather events, as evidenced by the devastating tornado 
outbreaks in 2011 and 2013, and the recent catastrophic 
hurricane seasons of 2005, 2012, 2016, 2017, and 2018.
    Windstorms, and associated flooding, are the largest loss-
producing natural hazards in the United States. Every State in 
the country is exposed to windstorm hazards from one or more 
storm types. During the period from 1980 to 2018, windstorms 
caused over $1 trillion in economic losses, and over 8,000 
fatalities in the U.S. The greatest of these losses are 
associated with tornadoes and hurricanes. In 2011, six 
different tornado outbreaks produced a combined damage of $29 
billion and 545 fatalities. In a 14-month span from August 2017 
to October 2018, five major hurricanes made landfall in the 
U.S., not including Hurricane Florence, which made landfall as 
a Category 1 storm measured by wind speed, but which caused 
catastrophic inland flooding impacts to the Carolinas. The 2017 
and 2018 hurricanes caused thousands of fatalities, and 
comprised approximately 79 percent of the $411 billion total of 
all extreme weather and climate events over that short period, 
and future projections indicate that these costs are likely to 
increase more rapidly than the growth of the economy.
    The causes underlying these massive and rapidly increasing 
windstorm losses are many, varied, and complex. Some are 
related to long-term societal changes, such as the movement of 
population toward coastal areas of the U.S. Others relate to 
climate variability and change, and other meteorological 
factors, such as limited understanding of surface level storm 
characteristics, their associated hazards, and interactions of 
these hazards on the built environment.
    Advances in recent decades in atmospheric science have led 
to great improvements in forecasting and warning systems for 
hurricanes, tornadoes, and other windstorms. However, large 
knowledge gaps remain in aspects of windstorm climatology and 
hazards near the surface. While great progress has been made in 
understanding earthquake effects on building, and engineering 
design to resist those effects, comparatively less progress has 
been made in engineering for extreme winds and for coastal 
inundation hazards.
    Without additional actions to mitigate windstorm hazards, 
losses due to windstorms will only continue to increase. I want 
to thank this Committee for its recognition of the necessary 
role for the Federal Government and other organizations in 
supporting windstorm impact reduction, and resulting creation 
of NWIRP to focus on reducing the loss of life and property 
from windstorms. NIST, as the lead agency, works closely with 
other NWIRP designated program agencies, FEMA, NOAA, and NSF to 
implement the program.
    To address the challenges noted previously, in 2018 NWIRP 
released its strategic plan, which was developed in concert 
with stakeholders from across government, academia, and the 
private sector. Contained within the plan are three overarching 
long-term strategic goals. They are: Improve the understanding 
of windstorm processes and hazards; improve the understanding 
of windstorm impacts on communities; and improve the windstorm 
resilience of communities nationwide.
    A signature NIST research activity that is emblematic of 
these three strategic goals is the current investigation of the 
effects of Hurricane Maria in Puerto Rico. That study aims to: 
Better understand how multiple intersecting hazards, such as 
wind, rainfall, flooding, landslides, and storm surge created 
the conditions that led to deaths and injuries; evaluate the 
performance of critical buildings and emergency communication 
systems; and improve understanding of the impacts to, and 
recovery of, selected businesses, hospitals, and schools. After 
the study's completion, NIST will pursue and track 
implementation of its recommendations in an effort to reduce 
windstorm impacts nationwide.
    NWIRP continues to make strides in implementing the 
strategy put forth in its strategic plan. However, as losses 
continue to mount, there is much work to be done. I look 
forward to discussing the NWIRP program with you today, the 
progress we've made, and challenges and recommendations for the 
future. I am pleased to answer any questions you may have. 
Thank you.
    [The prepared statement of Dr. Weaver follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
         TESTIMONY OF MAJOR GENERAL LEE TAFANELLI,

          KANSAS ADJUTANT GENERAL, DIRECTOR OF KANSAS

               HOMELAND SECURITY, AND DIRECTOR OF

                  KANSAS EMERGENCY MANAGEMENT

    General Tafanelli. Thank you, Chairwoman Johnson, 
Chairwoman Stevens, Chairwoman Fletcher, Ranking Members Lucas, 
Baird, Marshall, distinguished Members of the Committee, for 
the opportunity to sit before you today. I'm honored to testify 
on behalf of Kansas as the Adjutant General, and Director of 
Kansas' Division of Emergency Management and Kansas Homeland 
Security.
    A 2018 study by the National Institute of Building Sciences 
found that mitigation can save $6 in future disaster cost for 
every dollar spent. Kansas saves more money on average than any 
other State using the Federal Hazard Mitigation Assistance 
Program, as reported by a recent Pew Charitable Trust study. 
The data analysis showed that Kansas avoided $6.81 in potential 
disaster recovery costs for every dollar spent. This return on 
investment is attributed to the emphasis placed on reducing 
impacts from the two greatest hazards in Kansas, flooding and 
windstorms.
    With limited resources to contribute to disaster loss 
reduction, Kansas invests predominantly in the mitigation of 
flooding and windstorms. To date, Kansas has implemented 
approximately $220 million in mitigation projects, netting an 
estimated $1.5 billion in disaster cost avoidance. Over the 
past 2 decades Kansas has experienced 37 federally declared 
Presidential disasters, with over 90 percent of them coming of 
windstorm damages. With funding primarily received through the 
Post-Disaster Hazard Mitigation Grant Program, Kansas has 
completed 235 tornado safe rooms, with nearly 95 percent of 
those installed in schools. The largest cost burden of 
mitigation within Kansas is by local governments. The 
successful completion of the aforementioned school safe rooms 
was greatly influenced by the American Recovery and 
Reinvestment Act in qualified school construction bond 
programs, which supported the financing of tornado safe rooms 
in Kansas schools.
    Kansas approaches all hazard emergency management planning 
with a whole community approach. Leading mitigation efforts 
within Kansas is a Kansas Hazard Mitigation Team consisting of 
local, State, and Federal partners who provide input into the 
State's mitigation program, plans, and investment strategies. 
The use of Kansas Hazard Mitigation Team promotes collaboration 
of varying mitigation programs through all levels of 
government. This collaborative approach initiated the 
development and successful implementation of regional 
mitigation plans. Twelve regional mitigation plans enabled 105 
counties to successfully apply for and use Federal mitigation 
assistance to reduce loss. This planning approach has been 
identified by FEMA as a best practice due to effectiveness and 
cost efficiency.
    Our whole community planning approach is vital to 
understanding and addressing program mitigation challenges. 
Kansas is a home rule State, and as such, the responsibility 
for adoption and enforcement of building codes lies with local 
jurisdictions. Several cities and county jurisdictions, mostly 
urban communities, have adopted the International Residential 
Code and the International Building Code, however there are 
numerous rural jurisdictions within Kansas without adopted 
building code. The education and promotion of code adoption 
remains an ongoing mitigation effort within Kansas, which is 
why community involvement is of the utmost importance.
    Collaboration with other State governments is common, and 
often involves a sharing of program initiatives and best 
practices. Our regional mitigation planning approach has been 
explored by other State programs. Kansas is currently examining 
implementation of a residential safe room program similar to 
that in Oklahoma. This program would provide rebates for Kansas 
residents to install qualified safe rooms on private property, 
further providing the State's windstorm resilience. 
Collaboration with the Federal Government is primarily through 
FEMA, which supports all hazards emergency preparedness, and 
supports mitigation and recovery. Funding provided by Emergency 
Management Grant Program is critical to supporting Kansas and 
its disaster preparedness initiatives.
    Additionally, our mitigation programs completely rely on 
FEMA hazard mitigation funding. Besides supporting emergency 
management through funding of preparedness activities and cost-
share recovery, FEMA provides assistance largely in the form of 
planning technical assistance training, response resources, 
post-disaster assessments. FEMA's Hazus program is a notable 
technical assistance tool that provides a model for estimating 
potential losses from earthquakes and floods, increasing hazard 
awareness and planning. However, the absence of tornado-centric 
models create a significant planning gap that hinders risk-
informed windstorm decisions.
    Several Federal agencies supporting emergency management 
efforts through Kansas, including the United States Corps of 
Engineers, National Oceanic and Atmospheric Administration, 
among others. The successful implementation of cost-effective 
mitigation within Kansas is based on local government 
involvement, Federal funding assistance, and prioritizing 
projects focused on mitigating against the State's greatest 
hazards of flooding and windstorms. Efforts undertaken by the 
National Windstorm Impact Reduction Office supporting our 
program mitigation approach by allowing data-informed 
decisionmaking, ultimately improving Kansas' resilience.
    The Kansas program will remain committed to reducing 
disaster loss, and are comforted that the Federal Government 
continues support of these efforts. Thank you again for the 
opportunity, and I look forward to your questions.
    [The prepared statement of General Tafanelli follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

             TESTIMONY OF DR. DELONG ZUO,

           ASSOCIATE PROFESSOR OF CIVIL ENGINEERING,

         NATIONAL WIND INSTITUTE, TEXAS TECH UNIVERSITY

    Dr. Zuo. Good afternoon, Chairwoman Johnson, Ranking Member 
Lucas, Chairwoman Fletcher, Ranking Member Marshall, Chairwoman 
Stevens, Ranking Member Baird, and Members of the 
Subcommittees. I'm an Associate Professor of Civil Engineering 
at Texas Tech University. I'm also the Technical Director of 
the Wind Engineering Pillar of the National Wind Institute at 
Texas Tech University. I'm very pleased to be here today to 
address you on behalf of my University.
    With a student body of 37,000, Texas Tech University's main 
campus is located in the city of Lubbock, which is one of the 
fastest-growing communities in the State of Texas. The National 
Wind Institute at Texas Tech University has its roots following 
the 1970 Lubbock Tornado. Over the years it has grown into an 
educational and a research enterprise that supports convergent 
research in atmospheric measurement and simulation, wind 
engineering, and energy systems. Today the Institute has more 
than 40 faculty affiliates from across the University campus, 
and it maintains a suite of state-of-the-art research 
facilities. It also hosts a one-of-its-kind Wind Science 
Engineering Ph.D. program, which trains students, and prepares 
them to answer today's and tomorrow's challenging questions. 
With contributions from the National Wind Institute and 
elsewhere, the National Windstorm Impact Reduction Program has 
enabled many advancements, with the potential to enhance the 
resilience of communities to wind hazards.
    Despite the progress, however, severe windstorms remain 
among the most destructive and most costly natural hazards. As 
shown by Hurricanes Katrina, Sandy, Maria, and the Joplin and 
Moore tornadoes, windstorms leave behind long trails of 
destruction, with a large number of fatalities, and traumatic 
effects that often take communities years to recover from. 
Further underscoring these challenges are statistics that show 
losses caused by windstorms have been continuing to grow, 
without any apparent sign of slowing down. We believe that 
Congress can consider five non-trivial changes to the National 
Windstorm Impact Reduction Program that will further support 
its mission to reduce windstorm impacts.
    First, NWIRP can forge the closer connections between 
atmospheric science and engineering communities, through 
support for targeted research campaigns, for the express 
purpose of obtaining atmospheric measurements for engineering 
applications. Second, the program can also encourage closer 
connections to the social science community. That translates 
atmospheric and engineering research outcomes for social and 
economic applications. For example, underprivileged 
communities, that is people who live in mobile homes, are 
particularly vulnerable to windstorms. However, they're also 
often the least likely to benefit from advancements in 
scientific and wind hazard research.
    Third, the NSF sponsorship of shared use experimental 
facilities, so that every program can be expanded to support a 
dedicated experimental facility for tornado hazard research. 
Such an expansion would build on the success of existing NHERI-
sponsored facilities for other types of hazards, who are 
providing a unique testing platform that contributes to the 
urgent need associated with the lack of codes and standards for 
the design of tornado-resistant buildings. Fourth, NSF can 
improve the rapid response research mechanism that can 
accommodate unique challenges associated with windstorms. The 
current mechanism under NSF's existing RAPID (Rapid Response 
Research) program is largely reactive in nature, and time scale 
for application and award approval does not lend itself to the 
important field studies of transient and unpredictable 
windstorm events. Finally, NWIRP can improve the adoption of 
contemporary and emerging technologies, such as machine 
learning, that leverages the enormous volume and diversity of 
data associated with wind hazards, and additive manufacturing 
to radically change materials and methods used in the 
construction industry.
    In closing, we very much appreciate the longstanding 
commitment by Congress and the Federal agencies to strengthen 
the Nation's ability to resist windstorms. Texas Tech 
University looks forward to continuing our leadership role in 
research and education that supports this critical mission, as 
Congress and the agencies seek to improve this critical 
program. Thank you again for holding this important hearing, 
and the opportunity to share our perspectives. I look forward 
to answering your questions.
    [The prepared statement of Dr. Zuo follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
             TESTIMONY OF MR. RYAN COLKER,

          VICE PRESIDENT OF INNOVATION, INTERNATIONAL

       CODE COUNCIL, AND EXECUTIVE DIRECTOR, THE ALLIANCE

             FOR NATIONAL AND COMMUNITY RESILIENCE

    Mr. Colker. Chairwoman Johnson, Ranking Member Lucas, 
Chairwomen Fletcher and Stevens, Ranking Members Marshall and 
Baird, and Members of the Committee, I'm Ryan Colker, Vice 
President of Innovation at the International Code Council, and 
Executive Director of the Alliance for National and Community 
Resilience, or ANCR. It is my honor to testify on the valuable 
role of Federal agencies in addressing the Nation's windstorm 
risks. These Federal efforts frequently support the 
development, adoption, and enforcement of building codes and 
other mitigation strategies.
    The Code Council, with the support and engagement of its 
65,000 members from the design, construction, manufacturing, 
and regulatory sectors, is dedicated to providing safe, 
sustainable, and resilient buildings and communities. The Code 
Council develops model building codes, the I-Codes, which are 
the basis for building regulatory requirements in all 50 
States, multiple Federal agencies, and internationally. We also 
develop standards, including Standard 500 for the design of 
storm shelters, and Standard 600 for residential construction 
in high-wind areas.
    Building codes are a highly cost-effective hazard 
mitigation measure. The congressionally established National 
Institute of Building Sciences found that adopting the 2018 
International Building Code and International Residential Code, 
which governed commercial and residential construction and 
renovations respectively, provided $10 in mitigation benefits 
against hurricane winds for every $1 invested. Congress and 
Federal agencies have recognized the benefits of codes as 
disaster mitigation strategies through the Disaster Recovery 
Reform Act, bipartisan Budget Act, FEMA's strategic plan, and 
the National Mitigation Investment Strategy. Federal agencies 
contribute to the content of the code through the translation 
of research, to code changes that improve criteria, and 
subsequent code additions, and risk mapping that helps dictate 
what criteria should apply where. Agencies also support 
technical assistance to State and local governments, 
undertaking code updates.
    Despite limited funding, NWIRP has made several significant 
contributions. NWIRP supported FEMA research and publications, 
led to the development of Standard 500, and the requirement 
that K through 12 schools, and emergency responder facilities 
in tornado-prone regions include storm shelters. Notably, there 
have been no fatalities in properly designed and constructed 
storm shelters.
    Most recently, NIST and NOAA have developed a methodology 
for measuring tornado wind speed, leading to development of 
tornado risk maps, and new building design procedures, which 
will ultimately be incorporated into codes and standards. 
Additional codes and standards updates proposed by the NWIRP 
agencies have been successful, including the development of new 
designed wind speed maps that have been incorporated into the 
latest I-Codes. Following Hurricane Maria, FEMA, NOAA, and NIST 
collaborated to develop updated local wind maps that supported 
Puerto Rico's code update, based on the latest edition of the 
I-Codes.
    Building off these successes, NWIRP has additional 
opportunities to help mitigate windstorm risk. Adequate 
funding, a long-term authorization, and champions in both 
Congress and the administration are essential. At several NWIRP 
agencies, funding has lagged significantly below authorized 
levels, resulting in challenges to the program's effectiveness. 
For comparison, the National Earthquake Hazard Reduction 
Program received over $164 million for program activities in 
FY19, more than 5 times NWIRP's prior authorized levels, while 
the annualized losses from windstorms are nearly 10 times those 
from earthquakes.
    Additional areas for NWIRP focus include reducing the 
impacts of windstorms on manufactured housing through formal 
engagement of HUD (Department of Housing and Urban 
Development), advancing guidance for the evaluation and 
retrofit of existing buildings, undertaking research to 
understand and respond to the changing nature of windstorm 
risks, creating formal linkages between NWIRP and other hazard 
programs, building the NWIRP brand, strengthening the 
connections between NWIRP and private sector codes and 
standards developers, and increasing economic and social 
science research supporting codes and standards development and 
adoption, including benefit cost ratios and hazard 
communication. This is critical, given that only about a third 
of the 21 States that regularly face tornado risk require 
tornado shelters in schools consistent with current codes.
    In addition to codes and standards, Federal research 
supports broader activities that improve national resilience. 
ANCR, a cooperative effort of the Code Council, U.S. Resiliency 
Council, and the Meridian Institute, was born out of the 
recognition that communities are only as resilient as their 
weakest link. While building codes are a necessary component of 
a community's resilience strategy, additional policies and 
procedures must be in place. ANCR is developing a coordinated 
set of benchmarks for 19 community functions that influence 
resilience. ANCR's benchmarks on housing and buildings rely on 
codes and other existing standards, and NWIRP research, to 
support its activities.
    Thank you again for the opportunity to support 
reauthorization of NWIRP. The Code Council and ANCR will 
continue to provide communities with the codes, standards, 
benchmarks, and other tools they need to be safe and resilient. 
We stand ready to support this Committee, and the NWIRP 
agencies, in achieving shared goals of better understanding 
windstorms and assessing and reducing their impacts. Thank you.
    [The prepared statement of Mr. Colker follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Chairwoman Stevens. Thank you. At this time we'll begin our 
round of questions, and the Chair will recognize herself for 5 
minutes of questioning.
    It's in our documentation here that the last approved 
budget for NWIRP was around $5.7 million for Fiscal Year 2019. 
Dr. Weaver, can you talk a little bit more about the three 
pillars of NWIRP, in particular the ways in which you're 
working with communities beyond just implementing the studies, 
if at all, particularly around promoting understanding, and 
some of the adaptation and what goes into that, particularly 
with those limited resources that you have available?
    Dr. Weaver. Sure. Well, the NWIRP program, at its core, is 
an inter-agency coordination program, so obviously----
    Chairwoman Stevens. And I was talking about NIST.
    Dr. Weaver. Yes. So obviously we look to leverage, but we 
develop the science that goes into standards and codes. So one 
of the anchors of that would be our post-windstorm 
investigation. So if you look at either the Joplin tornado 
recommendations, or that which will come out of our Hurricane 
Maria investigation, we lean on that scientific research to 
promulgate that out into the world so that decisionmakers can 
then take that and balance their priorities in the way that 
they see fit.
    Chairwoman Stevens. And is it only buildings that you guys 
are looking at? Are you looking at other elements of 
infrastructure, particularly as windstorms become harsher, and 
we've even seen, in Michigan, new names for these types of 
storms. Bomb cyclone is one that came up. Even the derechos are 
newer to the lexicon. I know the Washington, D.C. area was hit 
with one within the last 10 years. But in particular, you know, 
you think about being a passenger, or a driver in a vehicle, or 
someone sitting in a plane that's about to take off, and I 
don't know if your research abilities or your standards 
recommendations are able to extend that far?
    Dr. Weaver. So we do focus--in fact, one of the strengths 
of NWIRP is that, when we conduct our post-windstorm 
investigations, NWIRP's authority is much broader than some 
other authorities that we use at NIST, and so it allows us to 
look at things that are not just directly related to the 
building, but may also feed into the building. So distributed 
infrastructure, waste water systems, electricity. That's one of 
the hallmarks of our Hurricane Maria investigation, we're 
looking at an island-wide disaster, and not just what happened 
in a given building. That's, of course, important, we're 
looking at that as well, but how the services were disrupted, 
how the landslides may have blocked transportation 
infrastructure, leading to people not being able to get to 
hospitals. So we are looking at things like that, and it's a 
highly interdisciplinary investigation because of that 
situation.
    Chairwoman Stevens. And the warnings become all the more 
critical and imperative for us, particularly as things might 
happen quickly, and, you know, heaven forbid you find yourself 
in one of those circumstances. I will actually never forget 
driving in a derecho, and getting to a restaurant where, you 
know, we had branches coming at us, you know, many trees fell, 
and we walked into the restaurant, no one had any idea what was 
happening, but, you know, we saw it occur before our eyes.
    And, Mr. Colker, you know, some of this is what you were 
just discussing in your testimony, around kind of the need for 
the awareness about the NWIRP program, and what these standards 
lead to, particularly as compared to something like the 
National Earthquake Hazards Reduction Program that, you know, 
has a little bit more staying power, and is a little bit more 
stable, but could you just talk a little bit more about how we 
can make NWIRP more stable throughout the community? And 
obviously we're so enthusiastic that it's inter-agency, but any 
other ideas that you have on that front?
    Mr. Colker. Yes. I think, certainly, having a long-term 
authorization. NEHRP is authorized for 5 years, which allows 
that collaboration, the engagement in the codes and standards 
development process, building sort of that research agenda over 
a longer period of time. Certainly funding is key to allowing 
that collaboration to happen. I think also developing a 
specific brand for the NWIRP program which would drive, you 
know, researchers and notoriety for the things that the program 
is doing, and can be doing into the future.
    Chairwoman Stevens. Great. Well, I'm going to yield back 
the remainder of my time, but thank you all so much for your 
expert testimony and what I think is going to contribute to 
some good work to come for all of us. So the Chair is now going 
to recognize my colleague Dr. Baird for 5 minutes of 
questioning.
    Mr. Baird. Thank you, Madam Chair. And, Dr. Weaver, I'm 
going to start with you on the NWIRP, which was created, what, 
in 2004, and under the Office of Science and Technology Policy? 
And then it was re-authorized again in 2015, and they put NIST 
as the lead agency. So I guess my question to you is has this 
made a difference, for NIST to be the lead agency? Has that 
worked out well, and has that been successful?
    Dr. Weaver. Well, I think it has. I mean, obviously there's 
always more that we could be doing, but I think one of the 
original issues was that there was rotating leadership in the 
first incarnation of the legislation, and I think having a home 
base like NIST has brought some stability to the program. I'll 
also say that NIST is a non-regulatory agency, so we're a user 
of a lot of the different products that come out of the other 
agencies, and I think it strengthens the program by having more 
of a user base, more of the applied science base from NIST to 
lead the program.
    Mr. Baird. Thank you. Then, for all of you panelists, 
because we have such fantastic expertise here, Purdue 
University has an award from the National Science Foundation to 
run the Network Coordination Office for the Natural Hazards 
Engineering Research Infrastructure Program, and that network 
enables researchers to explore and test groundbreaking concepts 
that protect homes, businesses, and infrastructure lifelines 
from the impacts of earthquake, wind, and water hazards, and 
enabling innovations to help prevent natural hazards from 
becoming societal disasters. So can each of you discuss the 
importance of having an integrated approach to natural disaster 
research, and how hazard-specific programs can better work 
together? So I'll start with you, Doctor----
    Dr. Weaver. Sure. So, as I mentioned throughout my 
testimony, as is shown in our strategic plan, disasters are not 
just about the hazards themselves. That's certainly an 
important component. You have a hurricane, without a hurricane, 
you don't have a disaster, or without a tornado, you don't have 
a disaster.
    But really getting to where the rubber meets the road, in 
terms of conducting experiments on engineering, and how that 
relates to the meteorological factors, I think NHERI is a 
really important player in connecting those two fields. And 
then also bringing in the social science aspect and the other 
interdisciplinary nature, it's really special in that regard.
    General Tafanelli. I think two things. Anytime that we can 
have an integrated approach to any of these type of events, 
we're going to be better off for that type of integration and 
close coordination working with other agencies. One of the 
things, as we pull these things together, even if they're not 
specific to a certain type of disaster threat that faces a 
particular part of the Nation, it doesn't mean there aren't 
lessons to be learned, and there's parts and pieces that can be 
adapted for local utilization. And we do that with the Hazus 
program, while it doesn't necessarily give us data specifically 
for tornadoes, we can use that in other areas. But I think 
anytime that we can collaborate and integrate those research 
efforts, it benefits all of us on the ground.
    Dr. Zuo. I think NEHRI is an entity that really opened a 
lot of doors for a lot of researchers, and we benefited a lot 
from that. For example, a lot of people want to do wind-related 
research, but they just don't have the large facilities like 
the wind tunnels at Florida and the University of Florida to 
work on what they want to work on. Now NSF opened this NEHRI 
Program, that gives everybody access to that. And, also, NEHRI 
has a cyber infrastructure facility at the University of 
Houston. You can comb through all the measures you develop, and 
all the data resulting from all the research. So that gives the 
community a lot of resource that you can work on. So I think 
this approach is very critical for the, you know, joint effort 
and success of a program like NWIRP.
    And also, as I said just now, the tornado research 
community right now doesn't have a facility to work on their 
problems, so if we can also include a tornado research facility 
in the NEHRI Program, that'll really further help the natural 
hazard research community. Thank you.
    Mr. Colker. Codes are built to address all the hazards a 
community faces, and so really understanding all of the 
opportunities to address multiple risks through various 
different opportunities, and capture multiple benefits, is 
certainly of value to the code, and the cost-effectiveness of 
bringing these measures to the public.
    Mr. Baird. Thank you, thank all of you, and I yield back my 
time.
    Chairwoman Stevens. Yes. Chair recognizes Chair Fletcher 
for 5 minutes of questioning.
    Chairwoman Fletcher. Thank you very much. Thank you all for 
your testimony, for being here today. I want to cover two 
topics with my 5 minutes, and I'm going to put some questions 
out to all of you to answer, or weigh in on as you choose. But 
first I want to talk about the funding and reauthorization of 
NWIRP. Dr. Weaver, you talked in your statement about the cost 
of inaction, and, Mr. Colker, you also talked about the 
appropriations cycle, and the challenges faced with a 5 year 
appropriations cycle for NWIRP, and so I guess one of my 
questions is, as we think about how to have this program 
realize its full potential, what about the way that we're 
currently approaching it--what opportunities are we missing by 
allowing the program to lapse, in terms of congressional 
authorization? What are the things we're missing? Anyone who 
wants to weigh in on it. Mr. Colker, if you want to go first?
    Mr. Colker. I can certainly start. I think one of the 
important things to recognize is the code cycle runs on a 3-
year update process, and so it takes some planning to be able 
to translate the research that's coming out of academia and 
other partners into code change proposals, sort of 
institutionalizing those proposals to the folks that 
participate in the code development process, getting those code 
change proposals adopted, and then ultimately engaging State 
and local governments in updating their code. So, you know, 
that is certainly a multi-year process, and if there's not 
funding or authorization in place, you miss gaps within that 
process, and that continuity can't continue.
    Chairwoman Fletcher. Thank you, that's helpful. Does anyone 
want to weigh in on missed opportunities or gaps that you see 
because of the funding challenges and the authorization cycle? 
OK. I will move on to my other topic, which will definitely 
take some time for everyone, which is something we talk about a 
lot on this Committee, as we're tackling various challenges 
that we face, is talking about incorporating issues relating to 
climate change into NWIRP.
    So I think in your testimony, again, Mr. Colker, you 
suggested that building codes need to better reflect future 
forecasts of storm intensity, something we know a lot about in 
my district, that there's an increasing intensity, frequency, 
and impact of some of these storms that we're seeing. So most 
of the built environment now is based on what we know from the 
past, and continuing in this model may not be sufficient to 
protect what we have built and what we're doing going into the 
future as we see the effects of climate change. How can we 
better integrate what we know now about climate change, and our 
views of the increasing threats of severe weather in various 
forms into engineering our future buildings for resilience?
    Mr. Colker. I can certainly start. The Code Council, and 
several other standards developers, including the American 
Society of Civil Engineers, have started sort of down that road 
of exploring, you know, what do codes and standards look like 
to address future risk. We've also started conversations with 
our code development colleagues in Canada, Australia, and New 
Zealand to start to address these risks.
    I think the important opportunity within the NWIRP agencies 
is actually bringing some of the climate science expertise 
that's within NOAA, and some of the research organizations, 
with the building science community that's represented by NIST, 
and FEMA, and other organizations to figure out sort of what is 
that basis for future codes that recognize those changing 
risks.
    Chairwoman Fletcher. All right. Does anyone else want to 
weigh in? Dr. Zuo?
    Dr. Zuo. Yes, I want to add that probably it will take the 
atmospheric science community and the--community to work--to 
look at problems like these. These are large-scale problems. I 
don't think either one of these can solve the problem. Thank 
you.
    Chairwoman Fletcher. Thank you. Dr. Weaver?
    Dr. Weaver. Yes, just one comment. I mean, the U.S. Global 
Change Research Program mentions this in their quadrennial 
report, but much of the research, as my two other colleagues 
mentioned, you have two different camps, and so trying to 
integrate the atmospheric science and the engineering world 
would go a long way toward being able to look at that problem. 
One kind of stops where the other one doesn't pick up, and 
they're not connected as well as they could be.
    Chairwoman Fletcher. Thank you. That's helpful. Well, with 
that, Madam Chair, I will yield back the balance of my time. 
Thank you all very much.
    Chairwoman Stevens. And now the Chair recognizes Ranking 
Member Marshall----
    Mr. Marshall. All right.
    Chairwoman Stevens [continuing]. For questions. Yes.
    Mr. Marshall. Thank you, Chairwoman. I'll start with Major 
General Tafanelli. I want to talk a little bit about the 
mitigation efforts in Kansas, what we've done. Here, on this 
Committee, we oversee work with NOAA and the National Weather 
Service. What type of collaboration projects have you done with 
them, with the State Emergency Operations Center, if any? 
What's working? What do you want to brag about? We're doing 
something right there, it sounds like.
    General Tafanelli. Congressman Marshall, I will tell you 
that the biggest thing that we see from the partnerships that 
we didn't see previously is now anytime we have activated the 
State Emergency Operations Center, we have representatives from 
the National Weather Service in there, and the tools that 
they're able to provide, the insights that they're able to 
provide decisionmakers as we look to position resources, make 
informed decisions about storm track, severity, and those 
things, is really invaluable.
    When we look at, particularly from a NOAA perspective, the 
ability that they can bring from a data perspective, really 
kind of helps us more on the planning side of what we do, 
because they have all of the historical records in that data 
that can then help us as we work with our mitigation plans, and 
when work with other planning efforts across the State.
    Mr. Marshall. Is there anything we can do to push or nudge 
them along to be more helpful to you all? Any suggestions?
    General Tafanelli. You know, I would say--I think one of 
the things that we really see is that is getting the people 
with the right information in the room, and sometimes, as we go 
higher up in the food chain, if you will, at the Federal level, 
or with some of the other entities that are out there, just 
knowing what capabilities that they're able to bring to the 
table really allows us a better opportunity to make informed 
decisions, and really do the kinds of things that we need to do 
to protect the public, and have the necessary response 
mechanisms in place.
    Mr. Marshall. OK. Let's talk about the building codes that 
you mentioned a little bit, General Tafanelli, as well. You 
know, as I think about growing up in Kansas, it would be 
unusual to not have a thunderstorm with an 80-mile an hour wind 
at least once a year hit your community. And, again, growing up 
we'd be listening to the radio, and I'd hear a tornado hitting 
the southwest side of Wichita, and my dad saying, ``my gosh, 
that's horrible. Well, Dad, how come? Well, that's where all 
the trailer homes are.''
    You know, are we getting any better? Are we safer today, or 
is that still a big concern? What are rural communities doing, 
along with urban communities, to address some of those issues, 
and any thoughts on how we can improve that situation?
    General Tafanelli. I would say that there's more of an 
awareness now within our communities and our citizenry out 
there, and some of the things that we have seen--with the 
example of mobile home parks, while it may not be practical for 
individuals to have storm shelters at each individual trailer 
site----
    Mr. Marshall. Right.
    General Tafanelli [continuing]. Many of those now do have, 
within mobile home parks, storm shelters that are in place for 
that community to be able to get to. When you couple that with 
the ability of systems today to be more predictable, in terms 
of forecasting where storms are going to be at particular 
times, it gives more people an advantage to take the necessary 
precautions to get to a site where they do have some secure 
cover over them in the event of that storm.
    Some of the things that we've done internally, from a rural 
perspective, has been really our safe room program, and we've 
put in a number of safe rooms at schools, in large part because 
approximately 20 to 25 percent of the community is in a school 
setting at some point in the day, whether that's in the 
classrooms, or whether that's at school events where the 
community may be involved, and that's especially important in 
the rural parts of Kansas. So one of those things is, again, 
taking that approach is why we really have invested in the safe 
room program.
    One of the other programs that we've done on a community 
basis is in Dodge City, Kansas, and we were able to do a 
monolithic dome structure that is capable of housing almost 
4,000 individuals. Now, they use it for other purposes, but 
there again, that's more of a community-based approach to 
providing those kind of safe structures.
    Mr. Marshall. OK. Thank you so much, and I yield back.
    Chairwoman Stevens. Thank you. And, at this time, the Chair 
recognizes Congresswoman Bonamici for 5 minutes of questioning.
    Ms. Bonamici. Thank you to the Chairs and Ranking Members, 
but thank you especially to the witnesses for being here, and 
for your expertise. You know, across the country we are seeing 
more frequent and intense extreme weather and climate-related 
events. Last week we had what was referred to as a bomb cyclone 
in the Pacific Northwest. It hit the Pacific Coast. According 
to the National Weather Service, the storm generated sustained 
winds of 85 miles an hour, with gusts up to 106 miles per hour 
on the southern Oregon coast. It shut down a major highway in 
both directions. Travelers were stranded in their cars. Twenty-
thousand people were without power. That was just last week. 
And we know today's infrastructure and building standards do 
not take future climate trends into account, so I'm glad we're 
having this conversation today. We know that current levels of 
infrastructure investment in this country are not enough to 
respond to these threats.
    According to the Fourth National Climate Assessment, read 
from the text, ``extreme weather events are expected to 
increasingly disrupt our Nation's energy and transportation 
systems, threatening more frequent and longer lasting power 
outages, fuel shortages, and service disruptions.'' So we know 
we need to do more to help our communities access information 
and data. They need to prepare for extreme weather events, 
including windstorms. And we know from the testimony that these 
investments make sense. They save lives and property.
    Dr. Weaver, you mentioned in your testimony that one of the 
goals of NWIRP is to improve the understanding of windstorms on 
communities, and I have two questions about that. First, how 
does NWIRP engage with local and regional stakeholders to 
determine where to direct future scientific research efforts, 
and then second, how do the four program agencies under NWIRP 
break down their research to a usable application level for 
localities?
    Dr. Weaver. Sure. Thank you for the question, 
Congresswoman. So, when we were developing the NWIRP strategic 
plan, this was a very large effort--we conducted outreach and 
solicited public comment, so we received comments from a range 
of different organizations, so that's one way that we tried to 
get the advice from stakeholders at the local or State levels. 
Our engineers also sit on committees of the American Society 
for Civil Engineers, which is a standards development 
organization that develops the standards that protect 
communities across the country.
    In the original reauthorization for this legislation, the 
National Advisory Committee for Windstorm Impact Reduction had 
broad representation from across different communities, and so 
that's several ways that we bring in local and State 
stakeholders into helping us decide what the research priority 
should be.
    Ms. Bonamici. How do you make it usable for local 
governments and localities?
    Dr. Weaver. So much of what we do is at the national level, 
and so trying to provide the best available science to inform 
engineering standards, and then that can be useful to local 
decisionmakers, where they have to balance different 
priorities.
    Ms. Bonamici. Thank you. I'm going to move on to another 
question. Dr. Zuo and Mr. Colker, in your testimony, you each 
reference the disproportionate effects of windstorms on low-
income communities, and especially residents in manufactured 
homes, and I know the Major General also mentioned that. 
Everyone should have a roof over their head, and with the 
challenges of affordable housing, manufactured homes often 
provide millions of Americans with a vital source of housing, 
but those are oftentimes families with low incomes, or in rural 
areas. There are more than 12,000 manufactured homes in the 
district I'm honored to represent in northwest Oregon, and I've 
heard from many residents of those communities about the 
challenges they already face.
    So, Dr. Zuo and Mr. Colker, would the Department of Housing 
and Urban Development's participation in NWIRP strengthen the 
Federal response to this, or socioeconomic consequences of 
windstorms, and what role could HUD play as a program agency 
under NWIRP? Mr. Colker, I know you mentioned it specifically 
in your testimony.
    Mr. Colker. Sure, absolutely. I think one of the challenges 
with manufactured housing is that it's not developed through 
the international code----
    Ms. Bonamici. Right.
    Mr. Colker [continuing]. Process, but rather the 
requirements are developed through a HUD committee, which 
ultimately, you know, HUD decides what's incorporated into 
those standards. And so, certainly, having a directed 
engagement of HUD in the NWIRP program, and specifically how to 
cost-effectively apply the research outcomes from NWIRP into 
the HUD code would be incredibly----
    Ms. Bonamici. Yes. I'm also out of time. Dr. Zuo, do you 
agree with that, it'd be helpful to have that input?
    Dr. Zuo. I agree with that, and I will also say there 
probably should be dedicated resources for that program.
    Ms. Bonamici. Thank you very much. And I know a lot of the 
manufactured homes are older as well, which creates additional 
challenges. And I yield back any time. Thank you, Madam Chair.
    Chairwoman Stevens. Now recognize Ranking Member Lucas for 
5 minutes of questioning.
    Mr. Lucas. Thank you, Madam Chair. General, I couldn't help 
but note you mentioned Kansas examining the implementation of a 
residential safe room program very similar to what we're doing 
in Oklahoma. And with, in an average year, 80 deaths, 1,500 
injuries, it would seem that that's a critically important one, 
and I bring that up for a couple reasons. One, my understanding 
is there's not been a single reported failure of a safe room, 
if it was constructed to FEMA's criteria. That's pretty 
impressive. I also note that back in 1999, along with 
Congressman J.C. Watts, I represented part of South Oklahoma 
City. He represented Moore, I represented part of Del City 
also. But we had an F5 roll through, some estimates 300 mile an 
hour winds, and the path was such--I've seen tornadoes in 
Oklahoma that were destructive, but this one literally not only 
picked the asphalt up from the streets, it pulled all the grass 
out of the ground. But when we flew the path afterwards, and 
President Clinton came down at the time, the amazing thing to 
me was this string of little concrete boxes in the path that 
survived.
    Touch for a moment, if you would, on the importance of 
collaborating with other States in these kind of programs, and, 
if you would, my final point--and, of course, I'm very proud of 
NOAA, and the National Weather Service's facilities at the 
Storm Prediction Center in Norman, Oklahoma, discuss with us 
for a moment, whether you have a safe room or not, the 
difference that the last 2 decades have made, where we've gone 
from an average of 7 minutes warning to 14 minutes warning. If 
you'd touch on that too?
    General Tafanelli. Ranking Member Lucas, thank you for the 
question. I too have seen far too many tornadoes, and I am 
always amazed at what Mother Nature can do, with regards to 
what it will take out, and what it will leave, and just the 
overall destructive damage. From a collaboration perspective, 
what we have found, working with Oklahoma, Ohio, and a number 
of other States, is that, looking at their programs, it doesn't 
mean that we'll actually implement it the same way, because 
while each State, each region, has its own certain dynamics 
that it must kind of work through, but what we found is there's 
always a willingness to share that information between the 
State Hazard Mitigation Officers, and even at my level, about 
how we can prepare for, respond to, and recover from disasters 
in a better manner.
    With respect to what we do with the National Weather 
Service, and--really comes out of the Storm Prediction Center, 
going back a number of years being involved in this field, what 
I am amazed with is the precise nature at which we can provide 
advance warning that didn't exist 10 years ago, 20 years, 30 
years ago. And I can't tell you or quantify the lives saved 
because of that advance warning, and it really is--we stress a 
lot at the local level about everybody has a role to play, so 
individual citizens need to be prepared. They need to have a 
plan in the event of emergency. We talked to them about tuning 
in to their local weather channel during times of significant 
weather to be apprised. They can log in their own street 
address so that they're notified of when a particular storm 
track may hit their area so that they can take the necessary 
precautions. Those things didn't exist before, and so I think 
that, as technology continues to get better, that notification, 
and the benefit that that has, will continue to increase.
    But I've also noticed, on the other side, that there's some 
hesitance in individuals because they'll look at that map and 
say, well, it's not exactly over my house, it's a half a mile 
away. Or, living in Oklahoma or Kansas, the number of 
individuals that will go out and stand on their porch, or on a 
deck, and look to see where the tornado's at. You know, I'm 
constantly reminded about those things, that sometimes if 
you've seen one tornado, you probably don't want to stand and 
see the second done.
    Mr. Lucas. The often used description at home is when you 
hear the freight train coming down the tracks, it's on you, but 
when you hear the freight train, it's too late. That 14 minutes 
means the difference between getting your children, your dog, 
your spouse, your neighbors into that concrete box with you, 
but, again, based on history, if you build your safe room to 
standards, you're going to survive, right, General? If you're 
in that safe room.
    General Tafanelli. That is exactly correct. I don't know 
the statistic of anybody that's been pulled out of a safe room 
dead.
    Mr. Lucas. Point made. Thank you, General. Yield back.
    Chairwoman Stevens. The Chair now recognizes Mr. Beyer for 
5 minutes of questioning.
    Mr. Beyer. Madam Chair, thank you very much, and thank you 
all for being with us. To follow up on the Ranking Member's 14-
minute comment, Dr. Weaver, you wrote and talked about how--
that right now we're depending--that we want NIST to encourage 
a spatially resolved real-time basis to supplement the 
currently deployed official binary warn/no warn system, and 
moving from a teletype deterministic watch warning to a high-
resolution probabilistic hazard information spanning period 
from days, to within minutes. There seem to be, you know, 
really sort of major shifts from what will it take us, in terms 
of the warning time. If we're 14 minutes now on average, does 
moving from binary system to something that's spatially 
resolved, from teletype to something that's high resolution 
probabilistic, are these, like, quantum leaps, in terms of 
warnings, for us?
    Dr. Weaver. Well, as my colleague just discussed, I think 
they are. What you're referencing is support for a program out 
of NOAA called FACETS. It's Forecasting A Continuum of 
Environmental Threats. So part of the support for that sprung 
up out of our Joplin tornado investigation. So, as I mentioned 
at the outset of my testimony, NWIRP is, at its core, a 
coordination program, and so, when we initiated that 
investigation, we invited a team member from NOAA to be on the 
team, and, as such, they played a role in creating the 
recommendations. And so one of the 16 recommendations out of 
that study was to develop technology for real time spatially 
tornado threat information. Now, the National Weather Service 
and NOAA were already engaged in that, but this investigation 
led to further support for that.
    Mr. Beyer. Great. Thank you. General Tafanelli, I'm from 
Virginia, I know you were in the legislature in Kansas, so you 
understand local lawmaking really well. We're a Dillon State, 
which means local governments can't do anything the General 
Assembly doesn't specifically give them the ability to do. I 
know and understand that Kansas is a home rule State, so you 
have this issue where numerous rural jurisdictions don't have 
adopted building codes. How do you get them to do that when 
there's not a State mandate?
    General Tafanelli. Congressman, that's a great question. If 
I could've solved that, we wouldn't have some of those issues. 
What I would tell you is that I think what we do is provide 
information to those community leaders, to those county elected 
officials, so that they can see that data, and then they can 
make an informed decision for themselves, with respect to those 
adoptions of particular building codes.
    Mr. Beyer. OK. I know most of our local jurisdictions in 
Virginia would rather be home rule, but no legislature's going 
to let that happen.
    Dr. Weaver again, I'd never seen the phrase ephemeral data 
before. I had to look it up. How long does that typically last, 
this transitory data that NSF has the plan to investigate?
    Dr. Weaver. I'm sorry, I'm not sure I'm understanding your 
question.
    Mr. Beyer. Well, you talked about the NWIRP coordination, 
including the NSF investment in 34 rapid response projects----
    Dr. Weaver. Sure.
    Mr. Beyer [continuing]. On ephemeral data.
    Dr. Weaver. Yes. So those projects are integral to post-
windstorm investigation. This is a situation where, when you 
have a disaster, oftentimes data starts to get lost. Things 
start to get picked up and cleaned up, and so these rapid 
proposals that NSF funds are very quick grants for university 
researchers to be able to go out and do reconnaissance missions 
as quickly as possible after the disaster strikes, and so the 
information that they gather is critical to us understanding 
how the disaster unfolded, the impacts, and so the data that 
they provide are instrumental to that----
    Mr. Beyer. Is this data that lasts a couple of days, or a 
couple of weeks?
    Dr. Weaver. No, they store it for the most part on 
something called Design Safe. And, actually, NIST does some 
wind mapping work where we store data on that entity, and folks 
can use that to correlate the disaster reconnaissance missions 
that they're doing, the things they're seeing with our wind 
mapping data.
    Mr. Beyer. OK. Dr. Zuo, you talked about the Enhanced 
Fujita Scale. When almost all these tornadoes occur east of the 
Rocky Mountains, why did it get named after a Japanese 
scientist?
    Dr. Zuo. Because Dr. Fujita was working at the University 
of Chicago, and he was very instrumental in developing the 
origin of Fujita scaled based on the damage to assess the wind 
speed. So his name got carried over when Texas Tech University 
developed the Enhanced Fujita Scale, because he's the first 
one. Thank you.
    Mr. Beyer. As someone born abroad, and then comes here to 
do science, he probably won a Nobel Prize too, right?
    Dr. Zuo. Unfortunately he didn't win a Nobel Prize, but he 
is very famous in this area.
    Mr. Beyer. Yes. OK. Yes. Thank you very much. Madam Chair, 
I yield back.
    Chairwoman Stevens. Thank you. I would not recognize Mr. 
Babin for 5 minutes of questioning.
    Mr. Babin. Thank you, Madam Chair, and thank you, 
witnesses, for being here with your valuable insight and 
experience.
    Dr. Zuo, I'm always glad to hear talk about scientific 
advances taking place in the State of Texas, especially when it 
comes to mitigating weather damage after Hurricane Harvey, 
which greatly impacted my district out of Houston, between 
Houston and Louisiana, with 60 inches of rain. As you 
mentioned, the National Wind Institute at Texas Tech 
University, where you are, supports research in atmospheric 
measurement and simulation, wind engineering, and energy 
systems. Could you discuss how the institute has collaborated 
with other academic institutions, especially those in the 
Tornado Alley region, along with Federal and industry partners 
on wind science research?
    Dr. Zuo. Thank you very much, Congressman. This is a very 
good question. Texas Tech University does collaborate a lot 
with other institutions. For example, yesterday a researcher 
from University of Oklahoma National Weather Center was on 
campus to talk about their program, and explore how the 
National Wind Institute and the National Weather Center can 
work closer together to try to understand the storms. And we 
also have a joint wind engineering and science program with 
Florida International University, so it's under the National 
Science Foundation's Industry-University Cooperative Research 
Program. We work with industry to try to come up with solutions 
that can directly be applied by the industry patenters. So 
these are examples that we do----
    Mr. Babin. Excellent.
    Dr. Zuo [continuing]. Work with some other centers. Thank 
you.
    Mr. Babin. Excellent. I was also impressed to learn that 
the EF Tornado Scale, the most accurate rating for tornadoes, 
and what we see printed in the news, was developed in 2007 at 
Texas Tech University, in collaboration with agencies and 
dozens of expert meteorologists. That's obviously a historical 
achievement that the Institute should be very proud of. Looking 
forward, what is the next big breakthrough in either 
atmospheric science or wind engineering, and, however ambitious 
it might be, what emerging idea do you get excited about in the 
future?
    Dr. Zuo. Rating a tornado is a very complex problem. Right 
now everything is based on the damage, but every storm is 
different. Different storms can give you the same damage, 
especially in tornadoes, because tornadoes vary in size. 
Sometimes you have two tornadoes together. This structure can 
cause different damages.
    The EF Scale, as you said, was developed in 2007, and much 
of it is based on understanding of the straight line wind, like 
the wind we experience every----
    Mr. Babin. Right.
    Dr. Zuo [continuing]. Day, but not tornadoes. So right now 
people are able to simulate tornadoes in tornado simulators, 
like the one that we have at Texas Tech University. And they're 
also able to simulate tornadoes using numerical approaches, so 
understanding from these kind of studies can make the reading 
of tornadoes much more accurate.
    Mr. Babin. Aren't there instances and witnesses who have 
seen multiple vortices inside of a big F1 or F3 or F4 tornado? 
Is that not true?
    Dr. Zuo. That is true. Sometimes you----
    Mr. Babin. Yes.
    Dr. Zuo [continuing]. Do see multiple tornadoes within one 
small----
    Mr. Babin. Yes.
    Dr. Zuo [continuing]. Area.
    Mr. Babin. Yes. Very strange. You mentioned two large wind 
tunnels that researchers have access to at the University of 
Florida and also Florida International University. I can safely 
assume those are more focused on hurricane wind hazards. What's 
the difference in hurricane hazard research and tornado hazard 
research, and is data from those experimental facilities useful 
for tornado research as well?
    Dr. Zuo. Thank you, Congressman Babin, that's a very good 
question.
    Mr. Babin. Yes, sir.
    Dr. Zuo. Actually, those facilities, as you said, are more 
suited for hurricanes, and, like cold fronts also. It's not for 
tornadoes, because tornadoes is a small-scale, swirling flow. 
It's not a straight line flow. So it changes the atmospheric 
pressure differently than hurricanes, and some other wind. So 
the data produced by those facilities can be used as a 
reference for the study of tornadoes, but not directly for the 
study of tornadoes.
    Mr. Babin. I've got you. Very interesting. The part of 
Texas that I represent, we have our share of tornadoes, but 
we're not in Tornado Alley, of course. We have the double 
benefit, or disadvantage, I should say, of hurricanes and 
tornadoes in our part of the State. So thank you very much, and 
I appreciate every one of you, and I'll yield back, Madam 
Chair.
    Chairwoman Stevens. And now Mr. Tonko for 5 minutes of 
questioning.
    Mr. Tonko. Thank you, Chairwoman Stevens, to you and 
Chairwoman Fletcher. Thank you for co-chairing what is a 
hearing on a very important topic, and thank you to the experts 
at the table for sharing your thoughts. New York has had a 
number of devastating natural disasters in recent years, 
including devastation from Superstorm Sandy, Hurricane Irene, 
and Tropical Storm Lee. In New York's 20th District, my home 
district, we used to talk about storms that came once every 100 
or every 500 years. This type of talk is no more with 
devastating weather events happening time and time again. The 
nomenclature has been proven totally off base. My hope is that 
the National Windstorm Impact Reduction Program will help 
better protect and prepare our communities.
    And so, to both Dr. Weaver and Mr. Colker, you both 
discussed how property damage can be abated by improved 
building code. Can you tell us how the Impact Reduction Program 
agencies have worked together with the model building code 
community to develop newer building codes?
    Dr. Weaver. Sure. Thank you for the question, Congressman. 
So as I mentioned previously when we conduct our post-windstorm 
investigations, and I'm going to use the Joplin tornado as an 
example, but we also do hurricanes as well, out of the 
recommendations come some of the recommendations are for 
scientific improvements. In particular, with respect to that 
investigation, one of the recommendations was to improve or to 
develop tornado wind mapping to facilitate a design for 
tornado--for structures.
    So that's the first ever of its kind, and so right now what 
we're trying to do is the science was developed to develop the 
wind maps for tornado design, first ever, and now our engineers 
are working with standards development organizations to get 
those implemented, for instance, into the American Society of 
Civil Engineers, into their 2022 update. It's a consensus 
process, so it's not something that will definitely occur, but 
we are working to implement that recommendation. So that would 
be an example.
    Mr. Tonko. OK. Thank you. And, Mr. Colker, do you have 
anything that you want to add to that?
    Mr. Colker. Sure. The success of storm shelter 
implementation, I think, is one of those key areas that we can 
point to. So FEMA work on developing sort of the pre-
requirements for storm shelters actually transitioned into 
Standard 500, which was then incorporated into the 
International Building Code, and International Residential 
Code, which is then applied at the State and local level.
    In addition to just the standard itself, the NWIRP agencies 
and others work to get the requirement that storm shelters be 
in schools and emergency response facilities in vulnerable 
areas. And so, even taking that one step further, providing 
that safety to folks within communities. And, actually, New 
York is one of those communities that requires storm shelters 
within schools.
    Mr. Tonko. Thank you. And, in regard to the improvement of 
building codes, what research would you cite, if any, is the 
most critical to get done right now? Is there any impact that 
you think needs to be further researched that will provide 
protection out there?
    Mr. Colker. I mean, certainly the work that Dr. Weaver 
mentioned around tornado-specific design standards and risk 
maps I think would be incredibly valuable. Addressing the 
challenges of future risk, and how to incorporate those into 
building codes, is another essential area. And then I think 
also really understanding the interface of tornadoes and wind 
events in urban areas, I think, specifically would be helpful 
as well.
    Mr. Tonko. And for anyone on the panel, strong and moderate 
building codes are generally cited as the most effective tool 
for limiting the impact of a natural disaster, and Mr. Colker 
mentions in his statement that the Code Council recently 
announced an initiative with code development organizations 
from Canada, Australia, and New Zealand. So how do model 
building codes in the United States compare to building codes 
in these other countries?
    Mr. Colker. I can certainly start. I mean, I think the 
biggest difference is actually the process that we use here in 
the United States. It's a consensus-based process, rather than 
a governmental-driven process, which many of these other 
countries have. In the developed world, I think we're generally 
comparable if we look sort of holistically across the codes. 
Certainly in, you know, in particular hazard areas, some, you 
know, countries may be a little more sophisticated, but I think 
overall we're probably generally about consistent with those 
more developed countries.
    Mr. Tonko. Any others that wanted to respond to that, or--
if not, I appreciate your response to my questions, and with 
that, yield back, Madam Chair.
    Chairwoman Stevens. Well, thank you all. And before we 
bring the hearing to a close, we certainly want to recognize 
our witnesses again for your expertise and your time. This is a 
really terrific hearing, and certainly explains a little bit 
more about the complexities and difficulties of navigating 
within the built environment, and the costs that are incurred, 
but also the opportunities before us. So we're all better off 
because we got to spend time with each of you today.
    Our record's going to remain open for 2 additional weeks 
for additional statements from Members, or for questions that 
they may have of the witnesses. And, at this time, our 
witnesses are excused, and our hearing is now adjourned.
    [Whereupon, at 4:10 p.m., the Subcommittees were 
adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
                   
Responses by Dr. Scott Weaver

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Major General Lee Tafanelli

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Delong Zuo

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Mr. Ryan Colker

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

           Letters submitted by Representative Haley Stevens
[GRAPHIC] [TIFF OMITTED] T8482.055

[GRAPHIC] [TIFF OMITTED] T8482.056

[GRAPHIC] [TIFF OMITTED] T8482.057

[GRAPHIC] [TIFF OMITTED] T8482.058

                                 <all>
</pre></body></html>
